<html>
<title> - BUILDING RESILIENT COMMUNITIES FOR AMERICA'S FUTURE</title>
<body><pre>[House Hearing, 116 Congress]
[From the U.S. Government Publishing Office]


          BUILDING RESILIENT COMMUNITIES FOR AMERICA'S FUTURE

=======================================================================

                                 HEARING

                               BEFORE THE

                    SUBCOMMITTEE ON LEGISLATIVE AND 
                             BUDGET PROCESS

                                 OF THE

                           COMMITTEE ON RULES
                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED SIXTEENTH CONGRESS

                             FIRST SESSION

                               __________

                      TUESDAY, SEPTEMBER 24, 2019

                               __________

[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]                               
                               

                    Available via http://govinfo.gov
             Printed for the use of the Committee on Rules            
             
                             __________
                               

                    U.S. GOVERNMENT PUBLISHING OFFICE                    
38-240                     WASHINGTON : 2019                     
          
--------------------------------------------------------------------------------------            
           
             
                           COMMITTEE ON RULES

               JAMES P. McGOVERN, Massachusetts, Chairman
ALCEE L. HASTINGS, Florida,          TOM COLE, Oklahoma,
  Vice Chair                           Ranking Republican
NORMA J. TORRES, California          ROB WOODALL, Georgia
ED PERLMUTTER, Colorado              MICHAEL C. BURGESS, Texas
JAMIE RASKIN, Maryland               DEBBIE LESKO, Arizona
MARY GAY SCANLON, Pennsylvania
JOSEPH D. MORELLE, New York
DONNA E. SHALALA, Florida
MARK DeSAULNIER, California
                       DON SISSON, Staff Director
                  KELLY DIXON, Minority Staff Director
                                 
                                 ------                                

             Subcommittee on Legislative and Budget Process

                  ALCEE L. HASTINGS, Florida, Chairman
JOSEPH D. MORELLE, New York,         ROB WOODALL, Georgia,
  Vice Chair                           Ranking Republican
MARY GAY SCANLON, Pennsylvania       MICHAEL C. BURGESS, Texas
DONNA E. SHALALA, Florida
JAMES P. McGOVERN, Massachusetts
                                 ------                                

          Subcommittee on Rules and Organization of the House

                   NORMA J. TORRES, California, Chair
ED PERLMUTTER, Colorado,             DEBBIE LESKO, Arizona,
  Vice Chair                           Ranking Republican
MARY GAY SCANLON, Pennsylvania       ROB WOODALL, Georgia
JOSEPH D. MORELLE, New York
JAMES P. McGOVERN, Massachusetts
                                 ------                                

                  Subcommittee on Expedited Procedures

                     JAMIE RASKIN, Maryland, Chair
DONNA E. SHALALA, Florida,           MICHAEL C. BURGESS, Texas,
  Vice Chair                           Ranking Republican
NORMA J. TORRES, California          DEBBIE LESKO, Arizona
MARK DeSAULNIER, California
JAMES P. McGOVERN, Massachusetts
                            
                            
                            C O N T E N T S

                              ----------                              

                           September 24, 2019

                                                                   Page
Opening Statements:
    Hon. Alcee L. Hastings, a Representative in Congress from the 
      State of Florida and Chair of the Subcommittee on 
      Legislative and Budget Process.............................     1
    Hon. Rob Woodall, a Representative in Congress from the State 
      of Georgia and Ranking Member of the Subcommittee on 
      Legislative and Budget Process.............................     3
Witness Testimony:
    Mr. Bill Johnson, Director of Emergency Management in Palm 
      Beach County...............................................     5
        Prepared Statement.......................................     8
    Mrs. Heather McTeer Toney, National Field Director, Moms 
      Clean Air Force and former mayor, Greenville, Mississippi..    12
        Prepared Statement.......................................    14
    Mr. John Piotti, President and CEO of American Farmland Trust    23
        Prepared Statement.......................................    26
    Ms. Katherine Hamilton, Executive Director, Advanced Energy 
      Management Alliance........................................    29
        Prepared Statement.......................................    32
    Dr. Marvin Phaup, Research Scholar and Professorial Lecturer, 
      Trachtenberg School of Public Policy and Public 
      Administration, George Washington University...............    40
        Prepared Statement.......................................    42
Additional Materials Submitted for the Record:
    Statement from Ashley Daniels, Resident of Wilmington, North 
      Carolina...................................................    64
    Statement from David C. Brown, Senior Vice President, Federal 
      Government Affairs & Public Policy, Exelon Corporation 
      dated September 23, 2019...................................    66
    Statement from American Property Casualty Insurance 
      Association dated September 24, 2019.......................    81
    Renewable Energy Jobs by State submitted by Ms. Scanlon......    93
    Curriculum Vitae and Truth in Testimony Forms for Witnesses 
      Testifying Before the Committee............................    95

 
          BUILDING RESILIENT COMMUNITIES FOR AMERICA'S FUTURE

                              ----------                              


                      TUESDAY, SEPTEMBER 24, 2019

                  House of Representatives,
    Subcommittee on Legislative and Budget Process,
                                        Committee on Rules,
                                                    Washington, DC.
    The subcommittee met, pursuant to call, at 2:46 p.m., in 
Room H-313, The Capitol, Hon. Alcee L. Hastings [chairman of 
the subcommittee] presiding.
    Present: Representatives Hastings, Morelle, Scanlon, 
Shalala, McGovern, Woodall, and Burgess.

                       OPENING STATEMENTS

    Mr. Hastings. The Subcommittee on Legislative and Budget 
Process of the Committee on Rules will come to order.

STATEMENT OF THE HONORABLE ALCEE L. HASTINGS, A REPRESENTATIVE 
    IN CONGRESS FROM THE STATE OF FLORIDA AND CHAIR OF THE 
         SUBCOMMITTEE ON LEGISLATIVE AND BUDGET PROCESS

    I am pleased to welcome our witnesses and thank them for 
being here. Today marks the Subcommittee on Legislative and 
Budget Process' first hearing of the 116th Congress. This 
afternoon's hearing will focus on ways to increase community 
resilience and the impacts that natural disasters have on the 
budget process.
    Since 1980, the United States has endured 250 weather-
related disasters where the overall damages were at or above $1 
billion. In total, these catastrophes have resulted in over 
13,200 deaths and an economic loss of over $1.7 trillion.
    However, the billion dollar disasters only tell one side of 
the story. This summer, and as late as last week, torrential 
downpours flooded huge swaths of the Midwest and southeast, 
triggering flash floods in Tennessee, Kentucky, and last week 
in Beaumont, Texas and Houston, Oklahoma, North Carolina, 
Illinois, and then as Bill Johnson knows in my home State of 
Florida. Beyond flash flooding, rising rivers in Iowa 
threatened local communities' drinking water. Wildfires and 
mudslides broke out in California, and there were droughts in 
the Dakotas.
    Weeks and weeks of rain across the Great Plains in the 
Midwest have kept many farmers from planting crops. In 
Arkansas, just half of the State's soybean crop had been 
planted by early June, compared with 90 percent at the same 
time last year. By the end of June, the flooding was so intense 
and widespread that at least 11 States sought Federal disaster 
funds for more than 400 affected counties.
    Events like these disrupt daily life, cause devastation and 
death, and generate billions of dollars in losses. But as 
policymakers, we sometimes fail to detail how disasters affect 
people's well-being, especially when we consider disadvantaged 
communities are usually among those who bear the brunt of 
natural disasters.
    Disparities exist before disaster strikes and recovery 
plans rarely account for these inequities, which embeds these 
disparities further. Let me give you an example of that that is 
a tragedy that all of us are aware of. In Abaco, there was an 
area called Mud in Abaco. Interestingly, the inhabitants of 
that little part of Abaco came from Haiti that had fled the 
earthquake disaster and the disparities in the Bahamas allowed 
that they lived in Mud. And when the hurricane just came 
through--I see Bill nodding his head--the thought is that many 
of them were just washed out to sea. It was in an area where 
the disaster relief people couldn't get to it as quickly.
    And that is an example of the disparity in another country. 
And I could do the same thing in Puerto Rico and several other 
places I could show you where that happened.
    I personally have seen the frustration and despair that 
sets in for communities when the Federal Government's disaster 
response falls short, or takes too long, or is so convoluted 
that many families struggle to understand what benefits they 
might be eligible for.
    Let me be clear, more extreme weather is going to come, 
whether we like it or not. And while we cannot stop natural 
disasters from hitting, we can control how we prepare and how 
we recover from them.
    While the current disaster supplemental process helps 
communities rebuild following natural disasters, it rarely 
makes individuals and businesses whole. And it cannot take the 
place of proactive Federal Government programs specifically 
designed to prepare communities before the next natural 
disaster hits.
    No region of our great country is immune to natural 
disasters. Therefore, I believe we must channel all of our 
energies into developing and implementing a national resiliency 
plan that empowers all of our communities to build a smarter 
and stronger future. This means not only unleashing the power 
of the Federal Government but also of cities, towns, urban, and 
rural, and suburban communities. It requires us to make the 
necessary investments in infrastructure and renewable energy to 
spur job creation in construction, manufacturing, and 
adaptation and mitigation technology. And failing to do so may 
very well cost us millions of jobs and trillions of dollars in 
the upcoming few years.
    We have the power to move towards a more sustainable and 
equitable future for all. And it is my hope that this hearing 
will help us clarify these challenges and set us on the path of 
addressing them in a more comprehensive fashion.
    I now recognize my good friend, the distinguished ranking 
member of the subcommittee, Mr. Woodall, for any opening 
statement he wishes to make.

 STATEMENT OF THE HONORABLE ROB WOODALL, A REPRESENTATIVE FROM 
THE STATE OF GEORGIA AND RANKING MEMBER OF THE SUBCOMMITTEE ON 
                 LEGISLATIVE AND BUDGET PROCESS

    Mr. Woodall. Mr. Chairman, I very much appreciate that, and 
I appreciate you holding the hearing today. I wanted to be the 
first, given this panel of amazing folks that are here before 
us, to introduce one of the witnesses that our team has 
invited, and that is Dr. Marvin Phaup.
    Dr. Phaup is the resident scholar professional lecturer at 
the Trachtenberg School of Public Policy and Public 
Administration at George Washington University, and specializes 
in teaching Federal budget concepts and policy. I would like to 
believe some of that is the result of work that he did here 
when he was the head of the financial studies and budget 
process group over at the Congressional Budget Office. And from 
there, he went on to be the director of Federal budget reform 
initiative with The Pew Charitable Trusts.
    He has also served as a senior economist with the Federal 
Reserve Bank of Cleveland, a fellow at the National Academy of 
Public Administration, received the Kenneth Howard award for 
lifetime achievement in public budgeting and finance from the 
Association of Budgeting and Financial Management, and the 
national distinguished service award from the American 
Association of Budget and Program Analysis.
    That is a long list of professional accomplishments, but I 
hope that we will dwarf those with testimony before the House 
Rules subcommittee here today.
    Mr. Chairman, as the former chairman of this subcommittee, 
I know how much it takes to put a hearing together, and I want 
to thank you and your team for all the hard work. As you would 
expect, your staff has been incredibly gracious working with my 
staff. I know that comes from the top in the same way that you 
are very gracious working with each and every one of us. I want 
to thank you for the spirit with which you put this hearing 
together.
    I remember one of the first issues I got to work on in the 
Budget Committee when I was elected back in 2011 was the Budget 
Control Act, which tried to do some of what we're talking about 
today. While it restrained discretionary spending across the 
board for the first time, it tried to forward fund disaster 
papers to say we know that we are going to have these 
challenges, let's go ahead and be honest about what that cost 
is going to be to the taxpayer.
    Now, you are trying to take that one step further in these 
resiliency hearings, not to bail folks out on the back end, but 
what can we do to solve problems on the front end. I know other 
committees in the House are working on this. On the T&I 
Committee on which I serve, we marked up two bills last week, 
the Resilience Revolving Loan Fund Act and the PREPARED Act. We 
actually passed the PREPARED Act in this Congress last year as 
a part of H.R. 4, but it didn't make it across the finish line.
    I happened to have googled House committees and resilience 
hearing before I came over today. We will see results from the 
Science Committee doing resilience hearings, the Budget 
Committee, the Oversight Committee, the Select Committee on 
Climate Crisis, the Natural Resources Committee and more. That 
is just at the Federal level. Of course, we see even more going 
on at the State and local level.
    This is the right time to have this conversation, Mr. 
Chairman. And while I would like to think you and I are both 
experts in congressional budget process, I know we are not yet 
experts in resiliency, funding, and financing predisaster 
mitigation techniques. And so I will take no more time so we 
can get on to the experts that you have here before us.
    I'm grateful, again, for your friendship and your 
partnership. And I yield back.
    Mr. Hastings. Thank you so very much. And thank you for 
bringing attention to the fact that staff has done an 
incredible job of getting these outstanding witnesses here, but 
talking with others around the country as well. Particularly in 
North Carolina, we paid a lot of attention to some of the 
concerns that we were able to get from their people.
    I also am mindful, we are more East Coast oriented than we 
are West Coast on this hearing. But, hopefully, we will be able 
to follow through and take into consideration the concerns that 
they have in the Dakotas and in other--in California and other 
places.
    Our witnesses today are experts in the field, all of them. 
And I want to welcome them and introduce four of them. And 
thank you for introducing the doctor, who has extraordinary 
credentials.
    First, Bill Johnson, my friend. He and I have suffered 
hurricanes galore in our area. He serves as the director of 
Emergency Management in Palm Beach County. And Bill has guided 
Palm Beach in its response to several disaster incidents. He is 
a registered nurse, a certified paramedic, and certified 
emergency manager.
    Next, we have Heather Toney, who served as the first 
African American, first female, and youngest mayor of 
Greenville, Mississippi. Heather also served as regional 
administrator for the Environmental Protection Agency's 
southeast region during the Obama administration. And she 
currently serves as the national field director for Moms Clean 
Air Force. That is something I want to hear more about. I see a 
couple of the ladies here as well.
    Third, we have John Piotti, who is the current CEO and 
president of American Farmland Trust, an organization dedicated 
to protecting agricultural land, promoting environmentally 
friendly farming practices, and keeping farmers and ranchers on 
their land. And John has over 20 years of executive management 
and public policy experience.
    And last but not least, we have Ms. Katherine Hamilton, who 
is executive director of Advanced Energy Management Alliance, 
an association of providers and supporters of distributed 
energy resources, including demand response and advanced energy 
management, united to overcome barriers to nationwide use of 
demand-side resources.
    Bill, I would like if you would deliver your testimony 
first, and then we will go straight down the aisle.

 STATEMENT OF BILL JOHNSON, DIRECTOR OF EMERGENCY MANAGEMENT, 
                       PALM BEACH COUNTY

    Mr. Johnson. Thank you, Congressman Hastings. Really 
appreciate it. And again, good to see you again. And thank you, 
everyone----
    Mr. Hastings. Get your mike there if it is not on.
    Mr. Johnson. Okay. You hear me now?
    Mr. Hastings. Okay.
    MR. Johnson. Again, thank you for the invitation today.
    Desire to make our communities more disaster resilient is 
not new. Experiences repeatedly demonstrated that lives can be 
saved, damage to property can be reduced significantly, and 
economic recovery can be accelerated by consistently building 
safer and stronger buildings, strengthening existing 
infrastructures, enhancing building codes, and making the 
proper preparations before a disaster occurs.
    Modern day mitigation has been evident since the late 1980s 
when the Stafford Act was passed. In 1990, the Community Rating 
System was established. And later, James Lee Witt, FEMA 
Administrator from 1993 to 2001, launched Project Impact, the 
program in 1997 to build community partnerships, identify 
community hazards and vulnerabilities, and prioritize risk-
reduction strategies.
    Giving out my age, but I witnessed firsthand the benefits 
of Project Impact. We elevated homes, we improved storm 
drainage systems, we fortified and relocated structures, and we 
hardened buildings and homes.
    In 2005, we learned that for every dollar spent on 
mitigation results in a $4 return on avoided future loses, and 
more recently, we are finding that that ratio was closer to 7 
to 1. A dollar investment in mitigation can save an average of 
$6 to $7 in response and recovery spending.
    It seems to me that the current Federal mitigation programs 
are built backwards, or at the least, upside down. Despite the 
plenty of evidence, the value and efficacy of mitigation 
strategies, funding for mitigation is a mere fraction of the 
funding for the after-the-fact post-disaster response. Instead 
of focusing its efforts on minimizing the impact of national 
disasters, FEMA is mired with cleaning up after them.
    Representative Hastings, you talked about 250 weather 
disasters amounting to more than a billion dollars in damages. 
And again, in terms of disaster relief, we have seen that 
number go as high as $140 billion.
    In terms of mitigation, however, over its 12-year history, 
funding levels for predisaster mitigation program, or PDM, have 
risen and fallen anywhere between $50 and $150 million. Despite 
the success of the Project Impact program, mitigation funding 
has continued to be well below the need. In 2018, only $235 
million in PDM funds were appropriated; a drop in the bucket 
compared to the $89 billion in supplemental appropriations 
alone for disaster response, also in 2018.
    The Hazard Mitigation Grant Program (HMGP) aims to reduce 
loss of life and property from future natural disasters by 
providing funding to State and local governments for mitigation 
projects after a major disaster declaration. HMGP funds are by 
far the majority of mitigation fund dollars appropriated by the 
Federal Government, and essentially, we must wait for a major 
disaster to be eligible for a great majority of mitigation 
dollars.
    Another example, not related to hurricanes, but further 
emphasizes an all hazards rethink, and that is the Homeland 
Security Grant Program began in 2003 for the purpose of 
procuring surveillance equipment, weapons, and advanced 
training for local first responders in order to heighten our 
preparedness. We have purchased personal protected equipment, 
rescue equipment, communications equipment and more, all aimed 
at the immediate response to a terrorist incident. $1 billion 
were allocated to HSGP in 2019.
    Now, while I am absolutely committed to protecting our 
first responders and ensuring their safety, after 16 years, we 
have allocated billions of dollars focused purely on the first 
7 minutes of a terrorist incident. However, we are learning 
from the post-incident analyses of terrorists and mass shooting 
events that recovery from these events is a prolonged process. 
After 7 minutes or less, nearly all incidents are over. But the 
hard work is just beginning, and that hard work lasts over 7 
years. The trauma, medical care, physical rehab, economic 
recovery, and mental anguish will linger for years, only to 
resurface annually on the anniversary of that incident.
    In Palm Beach County, we are using creative strategies to 
steer more funding toward recovery. We have drafted a family 
assistance and survivor care center plan and have exercised it 
twice and have plans to exercise it more. Addressing mental 
health and behavioral health symptoms immediately after a mass 
shooting event can help mitigate the long-term post-traumatic 
stress, depression, and suicides.
    Our next phase for community resiliency centers will serve 
as an ongoing resource and referral center for those affected 
by such events.
    Another example about mitigation. We all remember, it is in 
my mind permanently, the photo of the single home still 
standing, nearly unscathed, on Mexico Beach, Florida, after the 
entire neighborhood that was surrounding that home was 
annihilated by Hurricane Michael. The three-story home was 
built on 40-foot pilings, constructed of reinforced concrete, 
steel cables, and a metal roof. Estimates of the construction 
costs were only about 15 to 20 percent more than standards 
costs. This may sound expensive, but only the windows in one 
room, a set of stairs, and an air-conditioning unit were 
damaged by the storm; a far cry from the total rebuild costs 
throughout the catastrophic destruction done in the surrounding 
neighborhood.
    Even the private sector is engaged in litigation. Florida 
Power & Light, the largest power company in the United States 
with over 5 million customers, has made over $4 billion in 
investments. And I am here to prove, to say that over the last 
3 years of storms, we have noticed that and have seen how our 
electrical grid system has remained more storm resilient.
    The takeaway here, ladies and gentlemen, is building 
materials matter, building codes work, and mitigation works.
    Let's talk just briefly about sustainability. Hurricane 
Hermine was the first hurricane to make landfall in Florida 
since Wilma in 2005. Emergency managers worked hard during that 
11-year funding drought to keep our partners engaged, 
interested, and enthusiastic about mitigation. We shared best 
practices, success stories, and maintained our project priority 
list, which went unfunded for years. We put a lot of time and 
effort and resources into mitigation without any incentive.
    Luckily, the Emergency Management Performance Grants, EMPG, 
they fund local emergency management programs to staff and 
promulgate those mitigated campaigns such as the local 
mitigation strategy. Local mitigation strategies are ongoing 
programs that need to survive, even during disaster droughts. 
However, local mitigation strategies must have the resources 
behind them to maintain them, to provide the mitigation 
projects, to facilitate them, and make sure that they are 
shovel ready. Further support of the EMPG program or at least 
maintenance of the EMPG program will assure that mitigation 
remains at the forefront of local preparedness programs 
nationwide.
    Let me repeat, however, that when communities are trying to 
dig themselves out of a major disaster, it seems odd to me to 
throw millions of mitigation dollars at them at that time.
    Let me conclude by recommending a rethink of the current 
mitigation programs and funding. Let's flip them over 180 
degrees so they are right-side up. Let's change the focus to 
mitigation and less on cleaning up after the fact. As with 
Project Impact, let's showcase creative resiliency strategies, 
best practices, and let's celebrate success stories instead of 
incentivizing salvage operations. Finally, let's sustain local 
emergency management programs which are at the forefront of 
resiliency.
    Thank you again.
    [The statement of Mr. Johnson follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Hastings. Thank you.
    Ms. Toney.

  STATEMENT OF HEATHER MCTEER TONEY, NATIONAL FIELD DIRECTOR, 
MOMS CLEAN AIR FORCE, AND FORMER MAYOR, GREENVILLE, MISSISSIPPI

    Ms. Toney. Thank you.
    Chairman Hastings, Ranking Member Woodall, Chairman 
McGovern, thank you for being here, and members of the 
subcommittee. Thank you for the opportunity to testify about 
the role of resiliency in facing the impacts of natural 
disasters.
    My name is Heather Toney. I proudly serve as national field 
director for Moms Clean Air Force. We are an organization of 
over 1.2 million moms, dads, grandmas, all kinds of folks that 
are united against air pollution and climate change for the 
sake of our children's health. Now, my road to this position 
came in travel through public service. I previously served as 
regional administrator for the Environmental Protection 
Agency's southeast region under President Obama. And before 
that, a former major of my hometown of Greenville, Mississippi, 
for two terms.
    When our first major flood hit in 2008, I was beginning my 
second term and really focusing on infrastructure development 
in the city. I had spent my entire first term bringing the city 
back from the brinks of financial ruin, as we were heavily in 
debt and needed rebuilding badly.
    So after carefully cutting and saving, we were excited to 
do things like street rebuilding and preparing our city's 
foundation for economic development. But when the northeast 
winter snow began melting and flowing downriver to our banks, 
we saw that the river was going to be high and higher than it 
was before. It reached flood stage and stayed there for over a 
month. Homes were flooded, fields were lost, water lines broke, 
sewer lines leaked.
    What I was not prepared for was the impact that this would 
have on our city budget. See, cities are required to submit a 
balanced budget to the State no later than September 15, as the 
new budget year begins on October 1. For this reason, most 
cities begin budget sessions in late July to August, in order 
to adequately prepare, debate, and vote. When an extreme 
weather event such as a flood, hurricane, or storm hits during 
the spring or summer months, the city must allocate funds to 
address the need, without the assurance of money to replace the 
money that has been used.
    For example, the money used for police and fire overtime 
due to a Federal emergency extreme weather crisis are not only 
not budgeted, they are not replaced in time for the current 
budget cycle due to the length of time it takes to receive a 
Federal declaration, assessment of damages, and then receipt of 
funds.
    In 2011, when the crisis flood waters returned, I had 
learned a few lessons. Fellow mayors reached out to each other 
to provide immediate assistance. At the time, Harvey Johnson, 
mayor of Jackson, Mississippi, sent public work crews with 
concrete barriers to help us fill the gaps in our levee system. 
In turn, once we were secured, we sent our emergency management 
personnel to Vicksburg, Mississippi, to assist them in 
preparing for the flood waters headed their way.
    Even though no one can budget for a storm, we saved as much 
as we could. We had to forego needed city assessment purchases 
like garbage trucks and things that citizens had prepared for. 
We worked with local churches to help prepare the community for 
the impeding devastations. We relied on each other because each 
other was all that we had.
    I recall my Facebook post to the community on May 22 of 
2011, and it read: Toured Vicksburg's flooded area this morning 
with mayor Paul E. Winfield. He is doing a great job and is on 
top of the problem. Discuss next steps for our towns with 
respect to cleanup and restoration for residents and 
businesses. I worshipped with the good folks at Travelers Rest 
Worship Center. God is in control.
    As I sit before you today, I still believe that God is in 
control, and he is trusting us to use the God-given good sense 
to trust the science all around us that tell us these storms 
will worsen it we don't act.
    While I am no longer mayor today, my good friend and 
classmate Errick Simmons is mayor. And he was on MSNBC just 
last week sharing that the 2019 floods, which have come yet 
again, have assessed the municipal damages to the city of over 
$4 million. In 2011, mine was simply $600,000. With a city of a 
38.6 percent poverty rate, making the necessary repairs with an 
annual street budget of only $300,000, you can see that the 
burden lies heavily on poor people, and we are trying to figure 
out how to make sure we survive.
    When we looked over the numbers for 2019, $800,000 in 
damages to roads and bridges alone are what people are driving 
on and trying to get to work and get their children to school 
each and every day. The new budget session begins on October 1. 
Today is September 24. If we don't act, we continue to put poor 
people, families, and children in danger. This is not an 
opportunity for us to continue a debate; it is an opportunity 
for us to make a decision that saves lives.
    And we have the tools, if we work together and use them. 
And I believe wholeheartedly that we can. And for that reason, 
I am happy to be here and answer any questions of this 
committee. Thank you.
    [The statement of Ms. Toney follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Hastings. Thank you.
    Mr. Piotti.

    STATEMENT OF JOHN PIOTTI, PRESIDENT AND CEO OF AMERICAN 
                         FARMLAND TRUST

    Mr. Piotti. Chairman Hastings, Ranking Member Woodall, 
Chairman McGovern, it is a pleasure to be here today. Thanks 
for the opportunity to testify.
    I applaud the committee for dealing with this issue of 
resiliency. It is critically important to our farmers and our 
rural communities, and your purpose aligns closely with the 
work of the organization I run, American Farmland Trust.
    Since our founding in 1980, AFT has helped permanently 
protect 6.5 million acres of farmland with agricultural 
conservation easements, making sure that that land will forever 
be available, not only to grow food, but to provide a range of 
environmental services, including those that increase 
resiliency. At the same time, we have helped advance farming 
practices on millions of additional acres that have also 
enhanced resiliency. And we have promoted policies and provided 
services that have helped over a half million farmers stay in 
business.
    AFT, for decades, has undertaken a combination of research 
and policy work and programming in multiple States, but my 
purpose today is not to recount any of that, but rather, to 
outline some of the issues that we see out in the field where 
it is essential to America's farmers and rural America that we 
take steps to enhance resiliency.
    I am going highlight four areas. The first, how better 
farming practices boost resiliency. AFT has spent much of its 
history helping farmers improve soil health through practices 
that include reduced tillage, plowing up the ground less, and 
active use of cover crops and crop rotations. Building soil 
health has numerous benefits, including these:
    Healthier soil soaks up more water and can store more of 
it. And this, by keeping water on the fields, reduces the 
runoff to streams and rivers, and thereby, reduces the severity 
of flooding.
    And you can see this yourself if you go out and drive 
around in the community after a heavy rain. When there is bare 
ground, you see runoff. And when there is cover on the field, 
be it crop residue or cover crops, you don't see it. Everything 
seems much better.
    The second point, maintaining fields with cover crops and 
perennials, or even with the residue from the last harvest of 
crops, keeps soil in place during periods of heavy flooding. 
And farms managed with these practices will be able to bounce 
back much more quickly after an extreme event.
    Third, keeping soil on farm fields will also reduce 
recovery costs downstream, because there will be less sediment 
to clean up.
    There are many examples of how this past spring's heavy 
rainfall has prevented farmers from planting or forced them to 
plant late. You heard Chairman Hastings mention a few at the 
outset. Yet AFT has heard from farmers who use practices like 
no till and cover crops that they were often able to farm much 
earlier than their neighbors. One of the most commonly heard 
comments was that regardless of how much rainfall there was, 
farmers who had cover crops saw little soil erosion back on 
their field sooner.
    The second point I want to make, agricultural conservation 
easements can help mitigate flooding. Farmland provides a 
natural means of tempering storm water and flood waters. It is 
often the development that could occur on farmland that funnels 
storm water in ways that exasperate the negative impacts. 
Hurricane Harvey, which hit Texas in 2017, as we will all 
remember, is a real example of this. So much farmland around 
Houston had been developed that the city no longer retained a 
natural resiliency. Sadly, this is happening in Houston right 
now again.
    Another example of where development has led to increased 
flooding is in the pioneer valley of western Massachusetts. The 
devastation that occurred as a result of Hurricane Irene, that 
Chairman McGovern knows all of too well, many farms were under 
water. And sadly, a lot of soil washed down the Connecticut 
River into the ocean.
    The irony is that the farms were hurt by the fact that 
there is less farmland in the area now than there once was. 
Development occurring on farmland puts remaining farmland at a 
higher risk. This doesn't need to be what happens. We can use 
agricultural conservation easements to mitigate potential 
flooding.
    A few States are using the Federal Hazard Mitigation Grant 
Program to buy flood plain conservation easements. The first 
application that we are aware of occurred in the late 1990s in 
Illinois, following flooding along the Mississippi. Another 
example was in 2001 in Nebraska. Yet sadly, these are rare 
instances. FEMA needs to raise awareness of how conservation 
easements can be used to target agricultural lands that would 
be a natural buffer to flooding.
    The third item that I want to identify is how farms can 
play a critical role in flood attenuation and groundwater 
recharge. We are talking about floods here, but we have to 
remember that through much of the country we also have a 
problem with water supply, right? And there is an opportunity, 
at times, to address both issues simultaneously.
    In California, farmers are creatively working to both 
minimize the negative impacts of floods and help save flood 
water for future use. And the written testimony provides a 
couple of examples that I won't go into now, but the point is 
we need more innovative projects of this sort.
    And the fourth point I wish to make is that farms and 
farmers also enhance resiliency in other ways. So far today, I 
have been talking about how farms can help buffer floods and 
storms through on-the-ground practices, but I want to mention 
two other ways that farms enhance resiliency.
    First, I will stress how the economic and environmental 
health of so many rural communities is tied directly to the 
vibrancy of farming. And as we all know, the overall health of 
rural communities is critical to their resiliency and capacity 
for adaptation. Thus, it is critical that farming remain vital 
if rural communities are to remain healthy.
    We know that many farm communities are struggling for a 
variety of reasons that are beyond today's hearing. But my 
point is that any strategy designed to enhance rural resiliency 
must have at its core efforts to help strengthen farming.
    Second, I want to mention the roles that farmers often play 
in rural communities in a crisis. Farmers more often than not 
are key contributors to a community, perhaps as volunteer 
firemen or as first responders. Beyond that, farmers often 
possess exactly what is needed in time of crisis, be that heavy 
equipment, or the know-how to use it, or stored food stuffs, or 
barns or warehouses that can be used to shelter people or 
supplies. Simply put, farms and farmers are essential to rural 
resiliency.
    I thank you for the opportunity, and I look forward to any 
questions.
    [The statement of Mr. Piotti follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Hastings. Ms. Hamilton, just before you begin, the 
chairman is going to have to leave to go to a meeting. And so I 
can set the parameters here for the remaining portion of the 
hearing as well, at 4 o'clock, the Democrats have a caucus 
scheduled and many of the members here are going to have to 
attend that. I don't have to attend. I can if I choose, but I 
am here for you all. So I am going to be prepared to forgo my 
questions so that I can hear from the members on both sides.
    But right now, Chairman, if you have anything you wish to 
contribute to us or leave a couple of questions with us.
    Mr. McGovern. The question is what is our assignment here? 
We are hearing some great conversation, and I know that there 
will be even greater conversation as we go on. But, what are 
the two things that Congress must do right now to help our 
communities become more resilient to strong damaging storms? 
That is after everybody has testified.
    But let me just thank Chairman Hastings and Ranking Member 
Woodall for holding this subcommittee hearing. And I think it 
comes as no surprise that Chairman Hastings would focus his 
first hearing on something so important to his constituents 
and, frankly, to the entire Nation as to how to protect our 
communities from dangerous and expensive storms.
    And this issue of resiliency, as Mr. Woodall pointed out, 
is being discussed by a lot of committees, but it is something, 
quite frankly, we should have been discussing a long time ago, 
right. And so I appreciate what I have heard up to this point. 
I have your testimonies, which I read in advance. I appreciate 
that as well.
    But I will turn this back over to Chairman Hastings. And, 
again, thank you for your leadership.
    Mr. Hastings. Thank you very much, Mr. Chairman.
    Ms. Hamilton.

 STATEMENT OF KATHERINE HAMILTON, EXECUTIVE DIRECTOR, ADVANCED 
                   ENERGY MANAGEMENT ALLIANCE

    Ms. Hamilton. Thank you Chairman McGovern, thank you 
Chairman Hastings, thank you Ranking Member Woodall, and the 
entire committee, for inviting me to testify today. My name is 
Katherine Hamilton. I am executive director of the Advanced 
Energy Management Alliance. We focus on customer resources that 
can provide cost-effective, resilient, flexible, and clean 
solutions to our Nation's electric grid.
    AEMA works to ensure that resources such as rooftop solar, 
demand response, energy efficiency, smart inverters, batteries, 
thermal storage like hot water heaters, fuel cells, combined 
heat and power, microgrids, electric vehicles, and geothermal 
heat pumps are taken into consideration to provide resilience 
to our electric grid.
    While Federal agencies give grants for rebuilding, 
preparation in advance of these events using flexible 
technologies can lessen the burden both on the communities and 
on the government.
    Distributed energy resource deployment has provided 
resilience to our grid, whether because of extreme temperature, 
natural disaster, or even the solar eclipse. The ability to 
fail fast and recover fast is particularly suited to these 
resources. As far back as Hurricane Sandy, microgrids in New 
York and New Jersey enabled universities to continue operation 
in the face of massive power outages, providing a haven to 
others without electricity.
    PJM Interconnection credited demand response with helping 
the grid withstand the polar vortex in January of 2014. As 
multiple winter peaks were set, demand response, which is only 
required to respond during summer peaks, reduce load most than 
most generating resources, allowing the system to function 
reliably.
    After Hurricane Irma, demand response helped maintain 
balance between supply and demand to stabilize the flow to 
electric grid. As thousands of customers were rapidly having 
their power restored, demand threatened to outpace supply and 
cause additional blackouts. Tampa Electric Company had the 
foresight to install a diverse set of distributed resources.
    As Hurricane Harvey unleashed trillions of gallons of 
rainwater along the Gulf Coast, there was a range of energy 
impacts, including coal-to-gas switching as coal piles were too 
wet for conveyer systems to handle. Texas Medical Center, the 
largest medical facility in the world, was able to sustain 
critical loads throughout the storm, thanks to a combined heat 
and power system which operated without interruption.
    During heat waves in California, hundreds of energy storage 
facilities in San Francisco were called upon to operate 
collectively as virtual power plants, reducing demand on an 
overtaxed grid. And during the solar eclipse in 2017, over 
750,000 consumers lowered their Nest thermostats to reduce 
demand by 700 megawatts as electrical systems across the 
country were displaced into temporary darkness.
    Given wildfire season in California, and even today, the 
calling of public safety outages there, microgrids and other 
distributed resources will only become more important. It is 
critical that the Federal Government provide best practice 
planning and technical assistance for at-risk communities 
through the FEMA Pre-Disaster Mitigation Grant Program.
    We need Federal programs also that can leverage private 
financing. An example of a local organization that has provided 
resilience services is Florida's Solar and Energy Loan Fund, 
SELF. It is a CDFI that raises low-cost capital from private 
entities and then delivers clean energy and climate resilience, 
like roof repairs and replacement, impact windows, hurricane 
shutters, in underserved neighborhoods. SELF has helped finance 
fortified roofs that reduce home insurance rates by as much as 
50 percent, enabling homeowners to pay for those projects, keep 
their insurance, and lower their energy bills from the solar 
rooftop power.
    Having a national nonprofit entity, such as the National 
Climate Bank Act that was introduced in the Senate, could fund 
regional resilience projects and enable more States to create 
and feed institutions like SELF that serve frontline 
communities.
    The Department of Defense has identified the most at-risk 
bases for resilience needs in States as diverse as Florida, 
Georgia, Texas, Virginia, Utah, Oklahoma, Missouri, Maryland. 
Forts Benning in Georgia and Gordon in Georgia have both 
established resilience plans with solar energy as a key 
component.
    These examples and many others in my written testimony 
illustrate that customer-based distributed resources that are 
available today can provide critical services to the grid when 
it needs them the most. These technologies and financing 
mechanisms are resources we should implement before a hurricane 
strikes our coast, a flood destroys our business, or a heat 
wave endangers our most vulnerable populations.
    I urge the committee to take these solutions into 
consideration as we look broadly and strategically about how as 
a Nation we prepare for and respond to events that are beyond 
our control. The very solutions we choose could have the co-
benefits of reduced cost of and time for recovery, increased 
jobs and economic development for communities at risk, and 
reduced environmental impact through clean, flexible 
technologies.
    Thank you again for the opportunity to testify before the 
committee.
    [The statement of Ms. Hamilton follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Hastings. Dr. Phaup.

 STATEMENT OF MARVIN PHAUP, RESEARCH SCHOLAR AND PROFESSIONAL 
   LECTURER, TRACHTENBERG SCHOOL OF PUBLIC POLICY AND PUBLIC 
          ADMINISTRATION GEORGE WASHINGTON UNIVERSITY

    Mr. Phaup. Mr. Chairman, Mr. Woodall, and members of the 
subcommittee, thank you for this opportunity to speak with you 
about this important and timely topic. I am especially 
appreciative for the chance to bring a budget and economics 
perspective to your discussions. I am also grateful for this 
chance to briefly summarize and perhaps clarify my written 
statement.
    I also would thank Mr. Woodall for his kind and generous 
introduction. But I was reminded of a response once given by 
James Dickey, who was at one time poet laureate of the U.S. and 
also a Clemson football player, who said after a similar 
introduction, I wish my now deceased parents could have been 
here. My father would have been proud, but my mother would have 
believed every word. So thank you for that.
    The gist of my statement is really pretty simple. It is to 
recommend that you consider integrating all Federal spending 
for disasters into the regular budget process. That would 
require giving up the use of an emergency spending to fund a 
significant portion of outlays for disasters. Those funds would 
not be lost to disaster relief and recovery however, but 
rather, would be provided through the process I described in my 
written statement.
    I make this recommendation because I think it would enhance 
the effectiveness and efficiency of existing Federal spending 
for disasters. It would also be consistent with current efforts 
to improve overall Federal budget process.
    There appears to be three distinct elements to our disaster 
policy. One, of course, is providing immediate relief to those 
who are suffering severe loss. And over the longer term, to 
promote mitigation of losses, especially in rebuilding 
structures that have been lost, but also, making--thirdly--new 
investments to increase the efficiency of both of the two 
previous objectives.
    My impression is that most of the money for relief appears 
to come from the regular appropriation, but certainly very 
large amounts for mitigation and investment are provided under 
the emergency designation, which is importantly outside the 
regular budget process and free of Budget Act control.
    From the viewpoint of specialist in budget response, the 
current process may seem highly desirable, but there is a 
downside to this current budget treatment. It makes spending 
for emergencies appear falsely to be free. It appears that 
nothing has to be given up or sacrificed by the decision to 
allocate resources to this purpose. No one else's spending 
needs to be reduced. No one's taxes or fees need to be 
increased now.
    When the cost of an activity in a decision process is zero, 
it is rational to keep spending more of it until the benefit of 
the last unit is zero. That means spending too much for one 
purpose relative to the benefits of alternative uses of those 
resources. It also encourages spending on low value uses of 
those funds.
    Congress created the congressional budget process to remind 
itself that resources are scarce in relation to the beneficial 
uses to which they may be put and that nothing is free. With 
scarcity, everything--every decision to use resources in one 
place requires something else to be sacrificed.
    As weak and as troubled as the current budget process is, 
it remains the only salient source of the service of reminding 
us that using resources for one purpose are costly in terms of 
others. That reminder is useful in general and for specific 
policies, including disaster policy, because the limit on 
spending means that every opportunity cost means you--every use 
of resources means you are giving of something else. That limit 
when present forces us to think long and hard about how we use 
the available resources available in terms of their 
effectiveness and efficiency.
    Fully integrating disaster spending into the Federal budget 
through the process I have outlined in my written statement 
could motivate the clear and thorough reconsideration of 
current policy that the chairman referred to, and it could do 
so with respect to improving its performance with regards to 
equity, efficiency, and sustainability. Hence, my principal 
recommendation for action is that you consider this change in 
the budgetary treatment of disasters.
    Thank you.
    [The statement of Mr. Phaup follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Hastings. Thank you very much.
    Mr. Woodall.
    Mr. Woodall. Thank you, Mr. Chairman.
    Dr. Phaup, you explained in budgetary terms what I think 
Mr. Johnson was explaining in man on the ground by dealing with 
disaster terms. Did I understand your testimony correctly, Mr. 
Johnson, that we can take the same amount of dollars before a 
hurricane and after a hurricane and we are going to get a whole 
lot more bang for our buck before that hurricane happens?
    Mr. Johnson. Yes.
    Mr. Woodall. What I don't know is how to allocate those 
resources. Chairman Hastings showed me the picture that you 
referenced. But in Georgia--of course we are in the cut, we 
have been very fortunate during hurricane season--if we went 
through and built everything on 30-foot pilings and reinforced 
everything with--built it all out of reinforced concrete and 
cabling, might not be the highest and best use of those 
resources because we are more 1 in 100 years as opposed to 1 
every 5 years.
    Is it clear to folks who are in harm's way what that 
allocation of resources looks like? To Dr. Phaup's point, I 
only spend each dollar once. How I make sure I am spending that 
dollar on the family that is most likely to be affected as 
opposed to one that is much less.
    Mr. Johnson. Yes. Our local mitigation strategy prioritizes 
all of our hazards. We have 12 hazards in south Florida. 
Earthquakes and volcanoes, luckily, are not one of our hazards. 
So obviously, we don't look at mitigating in those areas. Our 
number one hazard is flooding. Our project priority list, all 
of the projects on top of that list are all of our flooding and 
storm drainage type projects.
    We--I worked in Miami Dade as well as the assistant 
director there, and we had it during the Project Impact years, 
and we were actually paying--or through Project Impact we were 
providing shutters for low-income and elderly populations. And 
that was just a little bit of money up front for the cost of 
those shutters, lower their insurance, it reduced my sheltering 
population, because those folks won't go to a shelter, and it 
kept them around. It kept them in the city just like we saw--
contrary of what we saw of Katrina. When those folks leave and 
they don't come back, they abandon their home, the recovery is 
so much more devastating, and I question how much better off 
those folks are than when they left kind of thing.
    So that is the short--that is the long answer to your 
question, that there are a lot of ways that when we, in looking 
at the variety of hazards, looking at our priority of our 
hazards, we can target that money and make it most effective.
    Mr. Woodall. And how do I make sure you keep that skin in 
the game? Again, to Dr. Phaup's point, the opportunity cost on 
free Federal money is very low.
    I go up to Maryland and I see beautiful solar panels all 
across the northern roofs under beautiful oak trees, because we 
subsidized things to such a degree that we didn't need to put 
it on a south-facing roof and on and on.
    Recognizing there will be a Federal partnership here, how 
do I make sure you are using the free dollar the very best you 
possibly can?
    Mr. Johnson. We are already doing--we are already following 
a process, and that is our local mitigation strategy. And our 
local mitigation steering committee is comprised of individuals 
and representatives and organizations throughout the community. 
So they are the ones that help prioritize our community and 
they are the ones that help understand it so it is not, you 
know, my piece of the money or my chunk of the money. They are 
the ones that then prioritize those projects. And again, if you 
go back and look at our PPL, you will see that just in concert 
with our number one risk is our top number of priorities in 
terms of flooding mitigation.
    Ms. Toney. May I also respond?
    Mr. Woodall. I was going to ask. Because since you had the 
smaller disaster on your watch, the larger disaster on the next 
watch, I was actually going to ask what Greenville did 
differently, knowing you were going to--that this could happen 
again tomorrow, if that changed your local budget. But, please.
    Ms. Toney. Yes, sir. I wanted to sort of just add, 
piggyback onto an answer here. Because we were talking about 
flooding, but if you recall in Georgia in Atlanta, Snowmageddon 
in 2014, where the roads were shut down. And because of the 
extreme ice and weather that came through Atlanta, you know, 
entire industries were closed. And these same mitigation 
dollars would be able to be used in those instances because the 
infrastructure in those locations rely on mitigation dollars in 
order to ensure that they are up to par and sustainable to be 
able to deal with that in the future.
    So, for example, Delta Airlines that is located there as 
well uses and can leverage this type of funding to assist them 
to prepare in the future and make sure that their runways are 
still able to move in the way that they need to move. I believe 
Coca-Cola, Mercedes-Benz are also two organizations that are in 
that area that are able to use and leverage those dollars in 
advance.
    Now, to go to Greenville's situation, I think it is a 
little different scenario, because while there were certainly 
lessons we learned between 2007 to 2011, to now 2019, the 
reality we are embracing is that these storms are coming 
faster, stronger, and they have more water in them. And so we 
are working very closely. I know the mayor there, and I am 
quite positive that the Congressman from the Second 
Congressional District, Congressman Thompson, is also very 
vested in working to make sure that they are able to look at 
sustainable opportunities and really build such that, as these 
storms continue to come, they can maintain and really play 
catchup, because that is what is happening.
    Mr. Woodall. From that local perspective, you are right, 
you have got needs across the board, right? One disaster goes 
through your entire annual budget by a factor of 10. I think 
about the money we spent in Flint, Michigan, after the fact 
instead of before the fact; we could have repaired that system 
for a fraction of the cost of mitigating the damage. But if I 
go to small town mayors across the country who have failing 
water systems, those mayors still haven't come up with the 
extra billion dollars to fix that system. They are going to 
wait until the catastrophic event happens and their partnership 
with the Federal Government changes.
    What can I do to encourage--here you are a moderate to low-
income community, I still need you doing more. What does that 
leveraging look like to make it more valuable tomorrow than it 
is today, to take that preemptive step that is going to take $1 
out of a different pot that you would have otherwise spent it 
on?
    Ms. Toney. I will give you a great example, Spartanburg, 
South Carolina, where they were able to--in a low-income 
community of color, they were able to utilize roughly a 
$300,000 EPA grant that was looking at the fact that they were 
in a community that was susceptible to flooding, susceptible to 
different types of extreme weather issues, they were able to in 
that community leverage that funding to work with, again, local 
industries, talk about revitalizing their grid, looking--
partnering with FEMA, with HUD, with EPA, with Department of 
Transportation. And over the course of about 10 years, 
including revitalizing their waste water treatment plant, their 
different methods of just delivering to the community and 
educating the community at the same time, they turned $300,000 
into roughly $300 million.
    So I think they are a case study in the fact that it can 
work when you do it ahead of time, when you involve and include 
local people, and you include all aspects of the community. 
There are success stories in this country.
    Mr. Woodall. I am going to tell Jeff Duncan you were 
bragging about his district up here.
    Dr. Phaup, let me ask you, because the--what divides us so 
often turns into--is a policy--is a policy debate. As a 
budgeteer, I want to see us forward fund things, because I too 
believe we make worse--certainly make worse decisions on the 
backside, more importantly, somebody's life has been affected 
that perhaps we could have intervened on their behalf ahead of 
time and prevented it. The dollars we spent on FEMA trailers 
after Katrina were not dollars well spent, if we could have 
spent that same dollar to keep a family in their homes ahead of 
that disaster.
    But my question is, I come to this from a conservative side 
of the aisle, but I believe if we did more forward funding of 
disasters, knowing that the intensity and severity is 
increasing, that we would actually change the debate about the 
nature of climate change, the nature of mitigation in general. 
Right now, I don't feel the impact because it is an automatic 
spend in a disaster bill. If I had to pay for it up front, now 
I am making the same decisions that Spartanburg and Greenville 
are having to make trading different things off. And if the 
cost of doing nothing is a $50 billion annual upfront disaster 
appropriation, maybe I am more interested in partnering with 
Mr. Hastings on whatever that next environmental bill may be.
    Through your budgetary lens, do you see an opportunity for 
forward funding to be a unifying event in Congress? Because 
ordinarily, trying to parse out the dollars ends up dividing us 
and leads to more discord.
    Mr. Phaup. Yes, I think I do. I mean, I would say that, you 
know, getting a big--getting the biggest bang for a buck, doing 
the most good to reduce disaster losses doesn't seem like to me 
there is much--there should be much partisan at stake there. I 
think it is a bipartisan desire to have a disaster policy that 
helps people in need and reduces the total overall cost of 
these losses, meaning that we would keep spending money for 
disaster mitigation up to the point where spending $1 saved at 
least $1 in losses. And for all those dollars that save more 
than a $1, it is a great buy, and it is a great buy for people 
on both sides of the aisle.
    Mr. Woodall. Having to put a number on what inaction costs 
us, Mr. Chairman, is a worthwhile exercise, so it goes beyond 
the scope of what we are doing here.
    I have taken too much time. I yield back.
    Mr. Hastings. Mr. Morelle.
    Mr. Morelle. Thank you, Mr. Chairman. I must admit, when I 
saw that you were holding this subcommittee hearing I was 
excited about it. I think this is a really important topic, and 
I am going to just point to a couple of things, both for me 
personally and my district.
    The other thing I was excited about is the Rules Committee 
is the only committee where you are not limited to 5 minutes in 
questioning witnesses, but I can see my time is going to be 
limited anyway, so foiled again.
    But I do want to thank all the witnesses, and I want to 
thank the chair and the ranking member for what I think is a 
very, very important issue.
    Obviously, folks have touched on the increased occurrence 
of weather events that come from climate instability. I am 
reminded, as I think our grandmothers would say, an ounce of 
prevention is worth a pound of cure. And that certainly should 
be, sort of, the theme of this hearing.
    Just from my perspective, my district is upstate New York, 
Rochester, New York. I sit on the shore, my district, of Lake 
Ontario. For those who have not been up to the Great Lakes, 
please come and visit. I know Ms. Scanlon has spent some time 
there. Ninety-four-thousand square miles of the Great Lakes, 
the five lakes that make up the Great Lakes; 10,000 coastal 
miles that we share between the Canadian border and the U.S.--
or the Canadian and U.S. coastline. So it is a massive--21 
percent of all fresh surface water in the world is in the Great 
Lakes.
    And what we have seen in my district, we have seen 
devastation in 2 out of the last 3 years, both in 2017, 2019. 
Significantly higher water levels that really start in Superior 
and go work their way all the way down. Lake Ontario is the 
bottom of the five lakes, in terms of elevation, so we end up 
seeing it sometimes years later. A couple years, believe it or 
not, it takes the water to flow.
    But what we know is that it has caused significant 
disruption, significant property loss and damage over the last 
several years. When I was in the State legislature, before 
coming here, I got appropriated nearly $100 million for just 
along the New York border of the Great Lakes to deal with the 
devastation. This year, Governor Cuomo has called for $300 
million resiliency by the State of New York.
    And so, as I look at this, obviously, this is very local 
and very personal.
    During my tenure in the State legislature, I was also the 
chair of the Insurance Committee and looking at property 
casualty losses for the State of New York, which included, of 
course, Long Island and New York City and their proximity to 
the ocean and Long Island Sound. And I was involved in 
something called the National Conference on Insurance 
Legislators to look at resiliency and even suggesting that 
there might be ways to reduce premiums for those individuals 
who did the appropriate things, as long as they were 
actuarially sound, to reduce premiums based on the types of 
investments you would make in resilient activities around 
property casualty loss.
    So this is really, in my mind, very, very important. I am a 
proud member of the American Flood Coalition, working alongside 
our partners here in Congress to identify and invest in 
solutions that help protect communities. I am pushing the U.S. 
Army Corps of Engineers to do a coastal resiliency study for 
the Great Lakes, which was in our appropriation process. And I 
co-lead that with my fellow New Yorker, Representative John 
Katko, in a bipartisan effort to do that.
    So I say all of this sort of as background, because I think 
this is truly, truly important. And, clearly, you see more and 
more efforts aimed at a conversation about resiliency. And 
finding the dollars is the question, which Mr. Woodall rightly 
points out.
    But I thought if I could, just a couple questions. And 
perhaps I will start with you, Mr. Johnson. You mentioned Palm 
Beach County was one of the first jurisdictions in Florida to 
draft a post-disaster redevelopment plan. And, obviously, as we 
are readjusting, what takeaways can we take from you about 
building a robust plan that places in my community can learn 
from as we deal with this flooding? What are those challenges, 
and how do you get the parties together and get people 
effectively on the same page?
    Mr. Johnson. Well, getting parties together at the table is 
a lot easier said than done. But, again, that is--again, kind 
of looking at the--what we tried to do was, kind of, look at 
our number-one priority, which was flooding. And it is 
unquestionably flooding in south Florida. Most of our land is 
between 7 and 8 feet above sea level.
    So when you determine, in terms of flooding--because 
flooding is definitely an apolitical element. So we coach it 
all as pretty much flooding. And we think that when we look at 
all of our storm water drainage programs and forward pumping 
strategies and whatnot, we are trying to accomplish the same 
thing, and so it is kind of a discrete way of dealing with it, 
again, making it more apolitical.
    Again, I want to go back to--the other solution, again, is 
to--I think it needs to tip the process on its head. Because, 
you know, the National Flood Insurance Program essentially 
incentivizes people to build in coastal and flood-prone areas, 
and we have to stop doing that and we have to turn it around 
the other way. Because we know how well that is working.
    So, you know, just those kinds of strategies that need to 
be uniform and community-wide. And I am not just talking local; 
I am talking State and Federal.
    Mr. Morelle. And what assistance or incentives do you think 
the Federal Government doesn't have in place right now that you 
would encourage to help build these local plans and assist 
local governments in developing these robust plans?
    Mr. Johnson. I think the plans are in place, especially in 
Florida. You know, a local mitigation strategy is required of 
all of the counties. So I think that the plans are there.
    I think the reality is, the fact that we have to wait until 
a major disaster occurs in order for us to access HMGP funds, 
again, it is kind of built backwards. If we could do more of a 
project impact-type model and less of the HMGP model and post-
disaster cleanup and salvage model, I think that is the way to 
do it.
    Mr. Morelle. Mr. Piotti--am I pronouncing that right, 
sir?--you talked about farming practices to increase 
resiliency. What barriers are there that the Federal Government 
might have in place that we ought to be thinking about removing 
to help encourage that?
    Mr. Piotti. Well, the Federal Government, primarily through 
the farm bill, the conservation title of the farm bill, 
provides a whole range of information and services and, at 
times, funding for farmers to adopt better farming practices, 
but we need more. So it is a shadow of what is incorporated in 
other parts of the farm bill.
    So more conservation practices would be helpful, but 
building off Bill's point, this notion of getting in front of 
issues is so important. And funding for agricultural 
conservation easements, potentially targeting easements on 
property that would be great places to store storm water or be 
a natural buffer to flooding, would be really great.
    Now, that program right now serves about 8 or 10 percent of 
the applicants, and there would be a lot more applicants for it 
if folks thought the chances of being funded was higher. But 
that is an example of how farmland protection could, in a 
proactive way, do exactly what Bill was referring to.
    Mr. Morelle. Ms. Toney, I am just curious--and I apologize. 
This is probably my last question. I apologize, Mr. Chair, for 
going on at some length here.
    But any lessons that you can teach us about what you 
experienced that would make the Federal process, if it is too 
cumbersome, less cumbersome, more efficient, and more helpful 
to the local communities as you are going through this process?
    Ms. Toney. Yes, sir. I believe that immediate funding of 
emergency management personnel is extraordinarily helpful to 
cities. They are going to expend that funding immediately 
anyway. And so those are, like, first top-line expenses that 
can be reimbursed.
    Typically, a damage assessment is required in those 
communities, and it does take a while to have officials to come 
down, do a damage assessment. It is a cumbersome process to get 
the paperwork done and then approved. And that is if you get a 
Federal declaration. Because cities are doing this on the hopes 
that they get a Federal declaration. To have a more streamlined 
process would not only be effective, it would help cities to 
save money.
    That is all, again, on the back end. And I have to agree 
with my colleagues, the more you put on the front end, and 
maybe giving assessment and climate resiliency technical 
assistance to communities to help them prepare in advance, 
would greatly reduce this amount on the back end.
    Mr. Morelle. So I can't resist--and I will make this my 
last question, Mr. Chair, but----
    Mr. Hastings. I thought the other one was.
    Mr. Morelle. I may have misspoken. I meant my second-to-
last. Now this is really my last.
    But I am curious if you have anything to observe about the 
link between flooding and toxic algae, which we are starting to 
see in the Great Lakes. And this is a growing, growing problem. 
If you have any thoughts about that.
    Ms. Toney. Yes, sir. It is not only a problem in the Great 
Lakes; it is a problem in the Florida coast lands; it is a 
problem in Mississippi. I live in Oxford, Mississippi, and we 
just heard about algae blooms that are coming up in a community 
not too far from us.
    So when you do see increased flooding, especially for the 
length of time that we saw flooding--it began flooding, heavy 
flooding in Mississippi--I believe we reached flood stage mid-
February, and we came out of flood stage in July. The Army 
Corps of Engineers has been activated since December of 2018.
    And so, with that length of time and that pressure and that 
amount of water, it is certainly not only going to continue to 
create situations where you have algae blooms that do reach far 
across the Southeast but that you see other toxicities as the 
farmers are working on issues with runoff from their fields 
because they are flooded. So it creates huge problems that we 
are working to resolve now.
    Mr. Morelle. Thank you.
    I don't have any other questions other than to again remark 
on, first of all, what a great panel this is and, secondly, 
what a distinguished gentleman the chair of this committee is 
and how much I value and admire him. Thank you.
    Mr. Hastings. Thank you so very much.
    Toward that end, Dr. Burgess has been very gracious in 
allowing--knowing that you all have to go to your 4 o'clock 
meeting, he is going to forego his questions. So we will go 
with you, Ms. Scanlon.
    Ms. Scanlon. Thank you very much, Dr. Burgess.
    Thank you, Chairman Hastings.
    And thank you all very much for your testimony today. I 
appreciate the opportunity to address the impact on our 
communities of natural disasters and how we can build 
resilience in those communities.
    Mr. Morelle talked a little bit about the shores of Lake 
Ontario, where my parents' home has been sandbagged for 2 out 
of the last 3 years--and that is something that had never 
happened before--because of the rising lake waters there.
    In the region where I live, we have had increasing extreme 
weather events, including a lot of flooding, sudden rainstorms, 
and tornadoes in southeastern Pennsylvania. That has not really 
been a thing in the past.
    And I don't think it serves any of us well when Congress is 
constantly playing catch-up, you know, and aid risks being 
delayed or denied due to political or regional rivalries or 
infighting. So I think this is a great panel to talk about 
these things.
    Ms. Hamilton, you talked a little bit about building a 
cleaner, more reliable, resilient, affordable grid. And I was 
really interested, I don't know if everyone has this, but the 
committee had these renewable-energy jobs. And if we can submit 
that to the record by unanimous consent----
    [This document is printed on pages 93-94]
    Mr. Hastings. Without objection.
    Ms. Scanlon. In looking at that, my State, Pennsylvania, 
lags behind in some of these things. And it has been kind of a 
frustration, as a former school board member, when other States 
would have incentives to push for some of these more renewable, 
resilient energy pieces.
    Can you comment on what we need to do across the country to 
get that kind of a grid and that kind of resilience?
    Ms. Hamilton. Sure. Absolutely. And thank you very much for 
that question, Ms. Scanlon.
    And Pennsylvania has a great climate plan that really talks 
about climate resilience and distributed energy resources as 
part of that. There are a few things that we need to do that 
are steps that aren't enormous but can have an enormous impact.
    One is tax credits, making sure that those still exist for 
technologies like energy storage and others that can provide 
backup. And Rochester is a big hub for energy storage 
technology. It is also one of the coldest places I have ever 
visited.
    But another big piece of this is actually leveraging 
private capital, so the government doesn't have to take this 
all on its own. There are over a dozen green banks that have 
popped up throughout the country. And this is something that 
Pennsylvania and any other State could do, but we need 
something on the Federal side.
    So, in the Senate, this National Climate Bank Act was 
introduced at $35 billion to leverage a trillion dollars. And 
this is bringing private capital in for communities and 
projects that were considered too risky to invest in 
previously. This is bringing in low-cost capital. The 
government can support some of it and seed it. The examples in 
the States have shown that for every dollar that the public 
spends the private sector comes in with $4.
    So New York has, you know, a billion-dollar green bank. 
Florida has a much smaller--it is a very small program, but 
they have leveraged hundreds of millions of dollars for 
projects for communities that are at risk from climate risk, 
from climate, you know, mitigation events, from frontline 
communities, lower-income communities.
    And I think that putting some structure in place in the 
Federal sector that leverages all that private-sector capital 
out there would be really helpful and would really scale all 
these technologies that we need to deploy.
    Ms. Scanlon. Okay. Thank you. That is really helpful.
    My time is rapidly up, but I did want to thank Ms. Toney 
for being here. I regularly hear from members of Moms Clean Air 
Force in my district, who have very active chapters, and they 
are great. So thank you for your testimony today.
    Ms. Toney. Thank you.
    Ms. Scanlon. I yield back.
    Mr. Hastings. Thank you, Ms. Scanlon.
    Ms. Shalala.
    Ms. Shalala. Thank you, Mr. Chairman.
    Thank you, Dr. Burgess.
    Let me quickly just make a couple of points. Since I live 
on ground zero--I represent Miami--for us, it is life or death. 
And since 1950, the sea level in south Florida has risen 8 
inches. It is only speeding up now. And by 2030 the sea level 
in south Florida is projected to rise 12 inches and by 2100 
perhaps 80 inches.
    But we have already done some things in south Florida. As 
you well know, after Hurricane Andrew, we changed building 
codes. Very few buildings go down anymore unless a tree falls 
on them, because the building codes after 2000 have been 
strengthened across south Florida, and that has made a huge 
difference.
    I have a number of points, but I have to get to this 
caucus, so let me simply say this. I am very interested in 
long-term budgeting. I do believe that budgeting for 
emergencies ought to be integrated into the overall budget. It 
is kind of a quaint idea now, since no one sort of wants to pay 
for what we spend. But my longtime friend, the late Alice 
Rivlin, had argued the case that we ought to integrate the 
budget.
    Second, I believe in these public-private partnerships. And 
I believe, if we are creative about the infrastructure bill, 
Mr. Woodall, if we are really creative about the infrastructure 
bill--and in the Speaker's letter, she pointed out that part of 
the infrastructure bill ought to be, in addition to roads and 
bridges and public transportation, there ought to be a huge 
section on the environment and on resilience in particular.
    That can be a public-private partnership. That could be 
leveraged money to do some of the things we need to do. In 
Miami Beach, we have raised most of the roads, we have spent 
millions on pumps, and we have built seawalls. Miami Beach 
might be able to afford it--though not anymore; I think the 
residents are getting tired of these extra taxes--but the 
communities around Miami Beach can't necessarily afford the 
same thing.
    So if we are smart in a big-time infrastructure bill, we 
actually could be very creative and really make a long-term 
difference. Because in the infrastructure bill, we could do 
multiple-year funding, and I think that would make a major 
difference.
    And I apologize. I have questions for all of you, but I 
need to obey my Speaker.
    Mr. Hastings. All right. Thank you.
    Dr. Burgess.
    Dr. Burgess. Fortunately, I am not constrained by any 
deference to the Speaker, so we can continue for quite some 
time, Mr. Hastings.
    Mr. Hastings. You notice I am staying here.
    Dr. Burgess. Yes, sir, I do.
    Well, I do appreciate all of you bringing what you have 
brought before us.
    Mr. Johnson, I wonder if--you had provided us this nice 
picture of a homeowner in an empty neighborhood, now an empty 
neighborhood. And I was just interested, are--and it really 
doesn't have anything to do with our discussion here today, but 
have you--you mentioned several of the things this homeowner 
did during the building phase which allowed him to be standing 
when everyone else wasn't.
    So, in the arena of best practices, has someone looked at 
and perhaps ranked those measures that that homeowner or home 
builder took to allow that home to remain standing so that the 
next person who is going to build a home next-door would be 
able to look at that menu of options, maybe take that to his or 
her lender to--you know, what is the most important thing here? 
The pilings? Reinforced concrete in the walls? What is the most 
important thing or what are the most important things to 
preserve a structure? Not that anyone ever wants that to happen 
again, but you are building on the coast; things happen. So 
have you looked at, sort of, ranking those building activities?
    Mr. Johnson. Emergency Management has not, but I will tell 
you that there are several universities down in south Florida 
that have.
    Again, it is a complex answer to your question. The reality 
is that the pilings are there because of storm surge, the metal 
roof there is because of the wind, the elevation is because of 
storm surge. So it is a multifactor kind of solution.
    The fact of the matter is that, I believe down in south 
Florida, we have the incentive, if you will, because we have 
seen things. I think those pictures are very dramatic. And if 
you have been in my position as long as I have--Mr. Hastings 
and I both remember Hurricane Andrew down in south Florida and 
everything in between.
    When you realize, when you look at storms, you will see, it 
is the building code, quite frankly, that does it. And, 
unfortunately, we will see that the building code in south 
Florida is dramatically different than it is in north Florida. 
They are still building homes----
    Dr. Burgess. That is what I was going to ask you about 
that.
    Mr. Johnson. And I think that is a local issue, that is a 
State issue.
    Dr. Burgess. Right.
    Mr. Johnson. But, again, I would argue that the dollars 
spent to build these homes with the reinforced concrete and the 
15-degree-slope roofs and those nails and--you name it; there 
are all kinds of things that are brought in in the south 
Florida code--would carry through to--and, of course, you know, 
clearing around your backyard so that when the trees do fall 
they don't hit your house, and things like that. There is a 
whole ton of different strategies that can be done.
    And I think that needs to happen at a local level, but I 
think it needs to start, you know, at the Federal level that 
can serve as an example. For example, turning the NFIP on its 
head and not incentivizing people to build on islands, if you 
will, and if they do, they need to elevate, and those kinds of 
things.
    Dr. Burgess. So I was wondering about that as well. But, I 
mean, heaven help us, I am not a banker. I should not be. It 
would probably be a violation of so many things if I were put 
in charge of people's money. But--oh, wait, I forgot we are in 
the Congress--if I were a banker making a loan, this seems 
like, okay, this loan is for more than what we would normally 
lend for a house in this neighborhood, but because of some of 
the things they are doing, this loan could, in fact, be better 
protected than a loan on something that is less expensive.
    Mr. Johnson. I agree. I scratch my head. In south Florida, 
I watched a 30-story condo unit being built. They actually 
poured dirt--they moved out into the water so that it had, you 
know, a 360-degree view. And it makes me scratch my head as to 
what loan or lender would want to incentivize that. And, you 
know, it just blows me away that we continue to focus on 
building on the coastline. And, granted, the views are 
wonderful and whatnot, but I am not sure that that is really 
what we need to be doing in this day and age.
    Dr. Burgess. Well, I thank you.
    And what brought this to mind was having visited down in 
those areas just north of where Hurricane Andrew came ashore, 
and it seemed like the houses there were different than houses 
you see in other places. And, I mean, I don't know that I would 
know this for a fact, but I suspected that was because of local 
codes that were developed in the aftermath of Hurricane Andrew, 
that, hey, we are not going through this again, we are not 
facing this rebuilding again.
    But I thank you for bringing the picture and sharing it 
with us. It is certainly very dramatic. And, boy, your heart 
goes out to everybody else in that neighborhood. Clearly it was 
a bad day.
    So, Dr. Phaup, let me ask you--and you kind of covered this 
with Mr. Woodall, but I just want to be sure that I am clear on 
this. The current process right now in our disaster response, 
it is post-disaster. And so these are dollars that are not 
considered under Budget Control Act or the Federal budget 
process.
    Mr. Phaup. A relatively small amount as a result of the 
Budget Act of 2011 that Mr. Woodall referred to. But large 
portions are treated as emergency spending, yes.
    Dr. Burgess. So, like, when we all had to come back here 
after Hurricane Katrina and appropriate $100 billion, whatever 
it was that day, that is all off-budget. I mean, that is not 
added to our Federal budget.
    Mr. Phaup. It is outside the budget process. It is 
uncontrolled by the other rules of the Budget Act.
    Dr. Burgess. So what are you thinking of as far as amending 
our rules to improve--if we were going to move into a pre-
disaster funding, I don't disagree with you, but I also have 
some concerns about that. Because just as nature abhors a 
vacuum, Washington abhors dollars that aren't spent. And I 
would worry about someone figuring that out, and before you 
know it, the cookie jar is empty when you need it the most.
    Mr. Phaup. Well, yes. I have colleagues who give a lot of 
emphasis to that. And it could be a serious problem.
    So if you were budgeting money, for example, to a disaster 
relief fund, and you run some years of good luck and the fund 
looks very high, you couldn't stop Congress, necessarily, from 
saying, not with any other provision, but we are going to do 
something with that money that we hadn't previously authorized.
    The nice thing about that is, that is pretty transparent. 
That is pretty easy to see as something that, unless there has 
been a serious error in estimating the long-term expected 
losses, that that is a violation of good practice.
    And we have actually had some experience with these funds 
where--they are called financing accounts--but where you, 
quote, ``set money aside.'' You score it as outlays. It is 
included in the deficit, although you don't have to borrow for 
it. But it is available for spending. And since you have 
already scored the money when you set it aside, it won't cost 
anything, actually, to disburse it.
    A couple of examples of that are--and people talked about 
leveraging guarantees, for example. I assume that is what they 
mean. We have had, kind of, forward funding of the cost of 
guarantees. When we issue a loan guarantee now, we recognize 
the expected loss on that guarantee and outlay it when the loan 
is disbursed. And that financing account has accumulated a lot 
of money. Similarly for direct loans, we treat them the same 
way, have since 1990 and earlier than that.
    This is an odd thing. We actually recognize interest on the 
debt of the U.S. Government as it accrues rather than when it 
is paid. So if you have a quarter in which the following 
interest accrues, we outlay it, show it as an outlay, show it 
as an increase in the deficit, and it goes into one of these 
financing accounts that have a lot of money in them.
    They have not been touched. I am not sure why. I mean, it 
looks low-hanging fruit, to finance somebody's favorite 
project. It has not happened. And I think what you want to do 
to guard against something like that is to--is embarrassment, 
try to make it so obvious, what is happening, that money 
expected to be spent for another purpose that is important and 
is accumulated because we have been lucky is not there for 
spending on other purposes.
    Otherwise, there is no real way to constrain opportunistic 
behavior like that.
    Dr. Burgess. And it is not just the fact that it is carried 
on the books so that the deficit looks lower than it actually 
is?
    Mr. Phaup. The deficit looks bigger--it looks bigger than 
it would on the cash basis because you haven't outlaid the 
money yet. In other words, we count it in the deficit--so the 
proposal developed in the written statement is to follow the 
model that we use in budgeting for direct loans and guarantees. 
You recognize what you expect the costs to be up front. You pay 
it into one of those accounts. It scores as increasing outlays 
and deficits right then.
    So people are a little reluctant about appropriating those 
moneys because it is going to be scored right away. And if you 
are interested in, you know, cost minimization, you now have an 
incentive that you didn't have before to look at the drivers of 
those costs of loan defaults, for example.
    The notion here is that when you make those funds available 
and score them as outlays before the disaster occurs, then 
people will have some interest in, well, what can we do to get 
more bang for the buck for those moneys, because it is counting 
right now against whatever caps and limits we have.
    Dr. Burgess. Well, I thank you.
    Mr. Phaup. That was a longer answer than it required.
    Dr. Burgess. But it is important, because we deal with that 
on a constant basis. Whether it be healthcare or 
infrastructure, we have to deal with that constantly.
    Mr. Hastings has been very generous. I will yield back.
    Mr. Hastings. Thank you very much, Dr. Burgess. I 
appreciate it.
    I have three unanimous-consent requests that I will make 
for myself.
    Ms. Ashley Daniels from North Carolina submitted testimony 
for us. And as I indicated earlier, we spent a lot of time 
talking with people in North Carolina.
    [This document is printed on pages 64-65]
    Exelon also submitted testimony to us;
    [This document is printed on pages 66-80] and the American 
Property Casualty Insurance Association, which is pretty 
important to all of us.
    [This document is printed on pages 81-92]
    So all of those, unless there are objections, are admitted 
by unanimous consent.
    Mr. Hastings. I am going to ask staff to send to all of you 
preparation information that they provided for us on Japan-
related background. I think you all will find it of interest. 
They spend and have spent for a considerable period of time on 
concerns about resiliency.
    And I come to this having, I think in my second term, 
visited Japan, and I found it interesting that their Diet, 
their parliamentary structure, was very similar to ours, but 
they had a related emergency disaster committee that was 
constituted of all of the chairs of the respective committees 
of jurisdiction and an appointee of the Prime Minister to that 
particular group to chair it.
    And they were able to move their disaster funds a lot 
quicker than we have here, with the tug-of-war that goes on. 
And I have seen it from drought not being taken care of for 2 
years, blew roofs down in my home territory, because we 
couldn't hook it up.
    So I am for the integrated budget. And I appreciate my 
distinguished friend Mr. Woodall for bringing you here, Dr. 
Phaup, for enlightening us. I wish that more Members of 
Congress had been here today, particularly on the relevant 
committees, so that they could hear how we might very well be 
able to do this.
    I will end by asking just a couple of questions of all of 
you, and I guess it is sort of related, but I will start with 
Ms. Hamilton and ask her to talk us through. Nothing is a 
silver bullet, but are tax incentives sort of a silver bullet 
for us in some respects?
    Ms. Hamilton. We know how to do tax incentives, so it makes 
them easy. They aren't a silver bullet, but it is something 
that is easy to administer and we are used to them.
    I think there are a lot of other creative things that we 
can do to move forward. Having a vehicle that would allow for 
private and public partnerships would be good. Allowing 
communities to share information, you know, so we can learn 
from each other and be able to take some of these lessons 
learned, no matter where you are.
    So I don't think there is necessarily one silver bullet, 
but this is something that is not going away and that, you 
know, preparing in advance is going to be crucial.
    Mr. Hastings. Mr. Piotti and Ms. Toney, can you address 
this and walk us through how tax incentives help and what their 
limitations are in rural and agricultural communities?
    Mr. Piotti. Sure. Well, the two areas that I identify, both 
agricultural conservation practices and agricultural 
conservation easements.
    On the easements side right now, many States and the 
Federal Government allow easements, the donation of easements, 
to be charitable. That often makes a big difference. Some 
States have companion programs where there is also a 
conservation tax credit. There is nothing like that at the 
Federal level, but that could be a very powerful additional 
incentive.
    On the farming practice side, there are, as I mentioned 
before, many good programs in the conservation title of the 
farm bill, but it is really not doing what is needed. The 
practices that I spoke about--say, the use of no-till and cover 
crops and rotations--if you look at the national statistics, it 
varies from area to area, but the percentage of farmers who are 
using those practices are in the neighborhood of about 6 to 8 
percent at most. And it is because farming is such a tough way 
to make a living, and if you are taking additional steps, it 
has additional funding costs.
    Mr. Hastings. Right.
    Mr. Piotti. So some form of either incentives or additional 
conservation title funding in the farm bill would provide a 
huge incentive for farmers to do more up front. And that would 
have a significant impact on the amount of runoff and the 
resiliency of farmland in its role in flood mitigation.
    Mr. Hastings. Uh-huh.
    Ms. Toney.
    Ms. Toney. Thank you, Mr. Chairman.
    When we usually think of tax incentives, I agree with my 
colleagues that it is one solution but not necessarily the 
silver bullet, particularly in vulnerable populations and low-
income communities. Because the idea is going to homeowners and 
business owners, and oftentimes these are communities where 
everyone is not included into that group.
    And so it has created and continues to create problems that 
we see in areas that are dealing with regentrification. You 
have communities of color where people may have owned their 
homes for years, and a natural disaster comes in, they are 
unable to rebuild or cannot afford the loan or for whatever 
reason are not able to stay, and then the area is turned and 
culturally shifted and changed, which changes the entire 
dynamics of the neighborhood.
    We are seeing that not only in New Orleans, but the Florida 
Keys is experiencing that right now with so many people who 
simply cannot afford to stay. And it causes a number of huge 
problems socially for that community. Where are your teachers 
going to live? Your firefighters, your police officers, where 
do they afford to live?
    Mr. Hastings. Right.
    Ms. Toney. And so we have to think also for those that are 
not necessarily homeowners or business owners in terms of our 
tax incentives, but maybe those who rent and/or are living with 
other family members.
    I will say that there are some opportunities that we should 
look at if we are going to talk about tax incentives, in terms 
of making them palatable and reasonable so that everyone can 
embrace them.
    When you are talking about businesses and tax incentives, 
it is, have we explored opportunities for job creation tax 
incentives for people to work in these spaces? Or if you are 
hiring someone, maybe, who needs to learn a new trade or tool, 
that is not only sustainable but creates resiliency in the 
community. Connecting with educational opportunities.
    These are the types of incentives that not only support new 
business growth and continued existence for that community, but 
they also sort of spur a pride that folks need to have when 
they want to stay home and they want to come back home. And 
that is what I think local folks ultimately want to do.
    So we should use this opportunity with our tax incentives 
to just broaden the scope a bit and figure out how we can help 
all people to not just take a little money off their taxes but 
actually stay in the community that they love.
    Mr. Hastings. Let me end our hearing by thanking all of you 
and drawing from the information that I said that I would send 
to you about Japan.
    Among the things that they feel is, if they invest heavily 
in resilience, they will be able to provide more export 
opportunities from a business standpoint, and, therefore, they 
draw in the private sector.
    And this particular portion of the information says: 
``First, let us present the evidence. The governing Liberal 
Democratic Party politicians and disaster-resilience 
technocrats in the Cabinet Secretariat's National Resilience 
Council, the Association for Resilience Japan, and other new 
institutions are building an economic paradigm based on 
National Resilience. As part of the resilience project, the NRC 
undertook a survey of private-sector firms' current and 
projected spending in late 2015. The survey determined that 
private-sector spending on resilience was about 11.9 
trillion''--in Japan money, which was $105 billion U.S. And, 
``That total can be broken down into core market segments.''
    And I won't go on, but I want to point out how the three 
biggest core and related sectors are electric vehicles, 
renewable energy--solar--and power regeneration and 
transmission bolstering. And I think all of you have touched 
on, in some ways, in that regard.
    I would like now for us to be able to close and hear from 
our ranking member anything he may wish to say at this time.
    Mr. Woodall. Great.
    I was talking with Dr. Phaup on the way up about how we so 
often come and go as Members and there are no bathroom breaks 
or dining breaks for the panel.
    I could go about another 2 hours with questions that I have 
for you, but now that we have all of your contact information, 
I can find you at home and ask you those very same questions. 
And so I will do that.
    Thank you, Mr. Hastings.
    Mr. Hastings. Thank you.
    One of the things we do, people think we drink a lot of 
water because we are hydrating, but we use it as an excuse to 
go to the bathroom.
    Before we adjourn, I would like to reflect on this 
conversation. It strikes me that, for as much as we know about 
the challenges our communities face due to extreme weather, 
there is still much we don't know.
    As is clear, I and Bill Johnson are from south Florida, and 
I know that hurricanes ruin lives, displace people from their 
homes, their jobs, and their communities. What I don't think we 
fully understand is this: What is the human cost of these 
storms, and how does that cost impact the Federal budget? And 
you all have helped us address some of those concerns today. 
What happens to educational pursuits, healthcare needs, and 
related costs? What happens with wages?
    Our inaction on resiliency planning and preparation, our 
inaction on investing in building stronger communities today, 
costs taxpayers and all of us money. It also threatens the 
existence of whole communities. And it definitely threatens 
lives.
    For all the time we talk about broadband, are we working to 
ensure that we are investing in communication technology that 
will withstand the next disaster in order to keep communities 
accessible to first responders and for first responders to stay 
connected to each other? I, for one, am just tired of them not 
being able to communicate with each other during the course of 
disasters, and I think the Federal Government, State, and local 
communities should have fixed that problem a long time ago.
    This will require more conversation and more action. My 
colleague Mr. Woodall and I are prepared to do the hard work to 
find these solutions. And I just appreciate you all so much 
taking of your precious time to come up here and be with us. It 
has been enlightening and informative.
    And I do believe that, as a result of this--and I do thank 
the staff. There are staff members from other committees that 
are visiting with us. The Moms for--what is it?
    Ms. Toney. Moms Clean Air Force.
    Mr. Hastings [continuing]. Clean Air Force. Okay. It 
confused me at first. I was thinking, what do they do? They fly 
around out there? But I guess----
    Ms. Toney. We are everywhere.
    Mr. Hastings. You are everywhere. All right.
    But there were so many more questions I wanted to ask. I 
come from farm territory and represent the Glades, Mr. Piotti, 
along with one other of my colleagues. And when we talk about 
algae and red tide and all of those things, they are of vital 
concern to us.
    But this will amuse Bill and you, Mr. Piotti. I recently 
moved to Boynton Beach. And, Bill, I live in Valencia Cove, 
right?
    Mr. Johnson. We are neighbors.
    Mr. Hastings. Yes. And in addition to that, it is in an ag 
reserve area that was originally ag reserve area, but we have 
these great developers, who I cast no aspersions on, that have 
decided that that ag reserve is not as important as some new 
homes. So everywhere I look, there is more development.
    And my granddaughter and I, when we go to the movies, we 
pass by an area, and I tell her, I said, I won't be here with 
you 20 years from now, but you see all of this land right here? 
This is going to be houses. And you remember when you pass 
through here that that is going to be the case.''
    And you have made the point that, by diminishing the amount 
of agricultural land, we then cause additional problems in that 
regard.
    All of you have been so enlightening and helpful, and I 
thank you all.
    And the longer I talk, I don't have to go to this 4 o'clock 
meeting.
    Thank you all.
    [Whereupon, at 4:30 p.m., the subcommittee was adjourned.]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
                            [all]
                            
</pre></body></html>
